BMO Harris Bank N.A. Pricing Information for BMO Harris Bank Platinum, Platinum Rewards, Cash
Back, Premium Rewards, Premier Services Premium Rewards and Wealth Management Premium
Rewards credit cards
Interest Rates and
Interest Charges

Platinum

Platinum Rewards, Cash Back,
Premium Rewards, Premier
Services Premium Rewards,
Wealth Management Premium
Rewards

Annual Percentage
Rate (APR) for
Purchases

0.00% introductory APR for six or

Prime Rate plus 8.74%
to Prime Rate plus
18.99%, based on your

fifteen months from account opening
date. After that, your APR will be

Prime Rate plus 8.74%
to Prime Rate plus
16.99%, based on your

creditworthiness. This APR will vary with
the market based on the Prime Rate.

creditworthiness. This APR will vary
with the market based on the Prime
Rate.
APR for Balance
Transfer

APR for Cash
Advances
Paying Interest

Minimum Interest
Charge
For Credit Card Tips
from the Consumer
Financial Protection
Bureau
Fees
Annual Fee
Transaction Fees
 Balance Transfer

0.00% introductory APR for twelve or fifteen months from date of first transfer
when transfers are completed within 90 days from date of account opening.
After that, your APR will be Prime Rate plus 8.74% to Prime Rate plus
18.99%, based on your creditworthiness. This APR will vary with the market
based on the Prime Rate.
Prime Rate plus 20.99% or Prime Rate plus 23.99%.
This APR will vary with the market based on the Prime Rate.
Your due date is at least 21 days after the close of each billing cycle.
We will not charge you any interest on purchases if you pay your entire balance
by the due date each month. We will begin charging interest
on Cash Advances and Balance Transfers on the transaction date.
If you are charged interest, the charge will be no less than $1.00.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore.

$0 or $79 after the first year of account opening or
$175 after the first year of account opening

 Foreign Transaction

 Either $10 or 3% of the amount of each balance transfer, whichever is greater
or either $10 or 4% of the amount of each balance transfer, whichever is
greater
 Either $10 or 3% of the amount of each cash advance, whichever is greater
or either $10 or 5% of the amount of each cash advance, whichever is
greater
 None or 3% of each transaction in U.S. dollars

Penalty Fees
 Late Payment
 Returned Payment

 Up to $37 or up to $39
 Up to $37 or up to $39

 Cash Advance

REV (04/01/21)

How We Will Calculate Your Balance: We use a method called “average daily balance
(including new transactions).” See your Agreement for more details.
Loss of Introductory APR: We may end your introductory APR and apply the standard APR if you make
a late payment.
Penalty Fees: A single violation of each type will not exceed $29. However, if another violation of the
same type occurs within six billing cycles, we will charge up to the maximum fee in the table above. The
Late Payment and Returned Payment fees will not exceed the related Minimum Payment Due.
Billing Rights: Information on your rights to dispute transactions and how to exercise those
rights is provided in your Agreement.
Cash Limit: Your Cash Limit is 20% of your Credit Limit. If cash access is requested, your Cash Limit will
appear on your billing statement. In addition to any limits imposed by the ATM operator, we may also
impose transaction limits on cash withdrawals. Please contact Customer Service at the provided phone
number with any questions regarding your Cash Limit and Cash Advances.
Promotional/Introductory Rates and Your Grace Period: If you take advantage of an offer
with an introductory or promotional APR, we will charge you interest on new Purchases, unless your new
Purchases have a 0% APR, or you pay your Account balance, including any Balance Transfers and Cash
Advances, in full each month by your payment due date.
Margins
And Periodic Rates with Corresponding APRs
Purchase Rate
Margin
8.74% to 18.99%
Periodic Rate
0.03284% to 0.06093%
(as of
04/01/2021)
(corresponding APR of
11.99% to 22.24%)

Balance Transfer Rate
8.74% to 18.99%
0.03284% to 0.06093%

Cash Advance Rate
20.99% or 23.99%
0.06641% or 0.07463%

(corresponding APR of
11.99% to 22.24%)

(corresponding APR of
24.24% or 27.24%)

Minimum Payment Due: Refer to your Agreement for how we calculate your Minimum Payment Due.

REV (04/01/21)

